this month.
                      Closeout of M91050022

Portions of this case reached OIG at various times and from

                The allegation was that Dr.
Division Director of I,        has generated da-kingl1
                                                           -
various sources. The portion being closed out here came from an
anonymous informant and was transmitted by Congressman
                                                             , the
,numbers, thereby violating conventional research standards and
distorting the truth. By releasing these results in the name of
,&$SFthe subject continues to mislead Congress and the public.

OIG examined the evidence provided and came to the conclusion
that this matter has to do with technical disagreement rather
than misconduct.   Nothing in the evidence indicates that data
have been fabricated or inaccurately presented.     On the other
hand, there is dispute about the quality of the data employed and
about the conclusions that should be drawn from them. These are
matters that should be decided by the relevant scientific
experts. It is within the competence of NSF management, if it
wishes, to request a technical review of the subjectls output and
to prevent its publication if that output is judged to be an
embarrassment to NSF.    Consequently, this portion of the case
does not justify a full misconduct investigation or any further
action by OIG.
Other portions of the case involve conflicts of interest and
auditing matters, rather than misconduct. These other portions
are being transferred to the Investigative staff.




May 23, 1991

Copies: IG
        AIG-0
